■

l.

No.

3fa tfie Supreme Court of tlie fHnttetr Stated
♦♦

State of Michigan, Petitioner
V.

William Shoulders
On Petition for a Writ of Certiorari
to the Michigan Supreme Court
CERTIFICATE OF SERVICE

I, David A. McCreedy, counsel for the State of Michigan, hereby certify that on
this 1st day of June, 2020,1 caused three copies of the State’s petition for writ of
certiorari to be served by U.S. Mail on the following counsel:
Elizabeth Jacobs
615 Griswold St
Ste 1125
Detroit, MI 48226-3910
elziacobs@aol.com
Attorney for Respondent
I further certify that all parties required to be served have been served.

f
David A. McCreedy
Assistant Prosecuting Attorney
Counsel of Record
1441 St. Antoine, Room 1116
Detroit, Michigan 48226
dmccreed@waynecounty.com
(313) 224-3836

RECEIVED
JUN 1 0 2020
OFFICE Or THE CLERK

so

me cuu-if.

us.

